BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for a Writ of
Certiorari in Kyle Ray Hurst, Personal Representative
of the Estate of Andrew Janies Hurst and on Behalf of
the Estate of Andrew James Hurst Deceased and the
Statutory Wrongful Death Survivor of Andrew James
Hurst v. United States of America, Tony Lourey, acting
by and through the Department of Agriculture US
Forest Service, were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 8th day of November, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
Supreme CtBriefs@USDOJ.gov
Zack Smith
Assistant United States Attorney
21 East Garden St, Ste 400
Pensacola, FL 32502
(850) 444-4000
Zack. smith@usdoj.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

Winifred Acosta
Assistant United States Attorney
111 North Adams, St., 4th floor
Tallahassee, FL 32301
(850) 942-8430
Winifred. acosta@usdoj.gov
Counsel for Respondent
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-204 7
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

